              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Operations




Audit Report

Management Controls Over Title X
Claims Reimbursement at the West
Chicago Thorium Processing Facility




OAS-M-04-08                             September 2004
previously approved by the Department from the 1994 through 2001 claims. This occurred
because the Department had not developed an assurance strategy that included both adequate
technical and financial reviews of the Kerr-McGee claims. As a result, the Department could
pay Kerr-McGee up to $164 million more for clean-up without adequate assurance that only
reimbursable costs will be paid.

During the audit, the Department initiated corrective actions by requiring that DCAA issue an
opinion on the adequacy of the 2002 claimed costs and by removing the $4 million in disallowed
cost from the 2002 claim payment. We view the Department’s actions as a positive first step in
addressing this important issue and have made several formal recommendations that, when fully
implemented, should help to ensure that reimbursed costs are allowable and appropriate.


MANAGEMENT REACTION

The Acting Assistant Secretary for Environmental Management (EM) concurred with the report's
findings and recommendations and has initiated corrective actions. EM agreed to strengthen its
review process by requiring opinions on audits of future claims and ensuring technical
participation in the on-site financial audits. EM also agreed to conduct an additional audit of the
1994 through 2001 overhead allocations and adjust future payment for any non-reimbursable
costs. EM's comments are summarized on page four of the report and are included in their
entirety as Appendix 2.


Attachment

cc: Deputy Assistant Secretary for Logistics and Waste Disposal Enhancements, EM-10
    Director, Office of Commercial Disposition Options, EM-12
MANAGEMENT CONTROLS OVER TITLE X CLAIMS REIMBURSEMENT
AT THE WEST CHICAGO THORIUM PROCESSING FACILITY



TABLE OF
CONTENTS


             Thorium Reimbursement Claims

             Details of Finding                         1

             Recommendations and Comments               4


             Appendices

             Objective, Scope, and Methodology          5

             Management Comments                        6
THORIUM REIMBURSEMENT CLAIMS


Background          Since 1994, Kerr-McGee Chemical LLC (Kerr-McGee) has been
                    submitting annual reimbursement claims to the Department of
                    Energy (Department) for payment of costs incurred to remediate
                    thorium related contamination at its West Chicago processing site.
                    These claims are typically reviewed by the Department's program
                    manager on an annual basis. In addition, the Department has
                    arranged for financial reviews of these claims by the Defense
                    Contract Audit Agency (DCAA) to ensure that costs are properly
                    recorded, accounted for in accordance with Generally Accepted
                    Accounting Principles, and are supported by reasonable
                    documentation. Based on the results of these reviews, Kerr-
                    McGee's claim is adjusted so that the Department pays its
                    predetermined share of remediation costs.

                    From 1994 through 2002, Kerr-McGee submitted claims valued at
                    $439 million, of which the Department's share amounted to
                    approximately $242 million. Claim review procedures employed
                    by the Department during this time resulted in a reduction of actual
                    payments by approximately $344,000. On April 28, 2003, Kerr-
                    McGee submitted a $48 million claim for remediation costs
                    incurred during 2002. The Department's review of the 2002 claim
                    was performed concurrently with this audit.

Review of Claimed   Our audit of Kerr-McGee's 2002 claimed costs disclosed that
Costs               Kerr-McGee had inappropriately claimed $7.3 million in
                    non-reimbursable costs, including $6.6 million in costs not actually
                    paid in the claim year and unallowable overhead expenses of
                    $675,000.

                    The review of the 2002 claimed costs identified $6.6 million in
                    non-reimbursable direct costs. After performing additional audit
                    procedures not initially included in the Department's review
                    process, the Office of Inspector General (OIG) and DCAA
                    identified $4.9 million in accrued costs and other costs that were
                    not actually paid in 2002. The Department's Guidance for
                    Preparation of Reimbursement Claims under Title X of the Energy
                    Policy Act (Guidance) specifies that costs can only be claimed
                    after they have actually been paid. These costs were not
                    necessarily inappropriate or unallowable and, based on our limited
                    examination, appear to be primarily attributable to timing
                    differences normally encountered in an accrual based accounting




Page 1                                                       Details of Finding
                      system. As such, these charges may be resubmitted in the
                      appropriate period and could be reimbursed during subsequent
                      periods. In addition, the OIG and DCAA found accounting errors
                      that resulted in the double counting of some expenses that caused
                      Kerr-McGee's claim to be inflated by about $1.7 million. During
                      the audit, Kerr-McGee prepared a new cost report for the 2002
                      claimed costs that was based on actual amounts paid during the
                      claim year.

                      We also noted that the Department's review procedures did not
                      identify overhead costs that were unallowable or not allocable.
                      Since 1994, Kerr-McGee claimed about $16.4 million in overhead
                      costs. In reviewing the overhead costs for 2002, OIG auditors
                      noted discrepancies in the allocation of such costs to West Chicago
                      remediation projects. Also, the audit procedures arranged for by
                      the Department, and performed by DCAA, did not require testing
                      of the Kerr-McGee overhead pool for allowability. After
                      discussing these concerns with the Department, it appropriately
                      expanded its review of overhead costs and determined that
                      $675,000 of the $2.4 million overhead costs in Kerr-McGee's 2002
                      claim were not reimbursable. Specifically, many of the costs were
                      either not allowable or should have been charged directly to other
                      projects. Based on the questioned overhead costs observed during
                      the evaluation of the 2002 claim, we also reviewed reports from
                      prior years and determined that the Department had approved
                      $14 million in similar overhead costs from the 1994 through 2001
                      claims without performing testing needed to isolate costs that were
                      unallowable or not allocable.

Reimbursement Claim   The Department's claim reimbursement process for Title X of the
Assurance Strategy    Energy Policy Act of 1992 (Title X) was not completely effective
                      because the Department's assurance strategy did not require onsite
                      technical reviews and fully scoped audits of the claims.

                      Although the Department routinely visited the West Chicago site
                      as part of its technical review, it did not consistently participate in
                      DCAA financial reviews at Kerr-McGee Headquarters in
                      Oklahoma City, Oklahoma. For example, while the 2000 and 2001
                      claimed costs totaling $124 million were reviewed by DCAA, only
                      limited assistance or participation was provided by Department
                      personnel. According to Federal regulations and guidance, the
                      technical review conducted by the Department should ensure that
                      licensees are only making claims for activities related to site
                      reclamation and should evaluate the reasonableness of the costs.




Page 2                                                          Details of Finding
                   Based on the OIG’s evaluation of financial reviews conducted
                   since 1995, we determined that the Department did not examine
                   Kerr-McGee's entire claim for allowability and allocability. The
                   Department arranged for DCAA to perform financial reviews to
                   determine whether the Title X requirement that Kerr-McGee's
                   claimed costs be recorded properly and supported by reasonable
                   documentation had been met. As demonstrated by work performed
                   during this audit, the audit work arranged for by the Department,
                   though consistent with Department Guidance, was not sufficient to
                   allow DCAA to provide an opinion as to whether or not the claim
                   was fairly stated, complete, and accurate.

                   To its credit, the Department initiated corrective actions regarding
                   the claim and audit assurance process. The Department requested
                   that DCAA conduct an additional review of the 2000 and 2001
                   claimed costs, with participation by Department personnel, and
                   required DCAA to issue an opinion on whether the 2002 claim was
                   fairly stated, complete, and accurate. In addition, the Department
                   plans to request DCAA assistance in determining the allowability
                   of Kerr-McGee overhead charges.

Reimbursement of   Because past technical and financial reviews were limited, there is
Costs              a risk that the Department has paid Kerr-McGee for non-
                   reimbursable costs associated with the West Chicago remediation
                   project. The OIG's audit and the Department’s technical and
                   financial review determined that $7.3 million of Kerr-McGee's
                   2002 claimed costs were not, in fact, reimbursable. According to
                   the Department, these costs were removed from the 2002 claim
                   payment, thereby reducing the Department’s share by about
                   $4 million. Based on the improper allocation of overhead from the
                   2002 claim, additional savings are likely to result from a more
                   extensive review by the Department and DCAA of the 2000
                   through 2001 claimed costs and the $14 million in overhead costs
                   claimed from 1994 through 2001. The Department's portion of
                   that overhead amount is about $7.7 million. Reforms in this area
                   are important because, based on current funding authority for the
                   completion of the West Chicago remediation project, the
                   Department could reimburse an additional $164 million in costs.




Page 3                                                      Details of Finding
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management (EM) ensure that planned corrective actions
                  announced during the review are implemented by:

                       1. Expanding DCAA’s current scope of work to include
                          fully-scoped claim audits that will provide an opinion on
                          the accuracy of overhead allocations and the adequacy of
                          the 2002 claimed costs and future reimbursement claims;

                       2. Tasking DCAA, or other qualified firm, to review Kerr-
                          McGee overhead allocations from the 1994 through 2001
                          claimed costs to test for allowability and allocability and,
                          if appropriate, recovering non-reimbursable costs; and,

                       3. Strengthening technical reviews to ensure Kerr-McGee's
                          claims are fairly stated, complete, and accurate.


MANAGEMENT        The Acting Assistant Secretary for EM concurred with the report's
REACTION          findings and recommendations. EM emphasized that although
                  scheduling conflicts prevented the Department's staff from
                  attending the DCAA financial review of the 2000 through 2001
                  claimed costs, the staff does work closely with DCAA throughout
                  the review process. However, EM recognized that there are
                  advantages to performing the on-site audits concurrently and has
                  made it a standard practice to do so since 2002. Thus, EM agreed
                  to strengthen its review process by requiring opinions on audits of
                  future claims and ensuring technical participation in the on-site
                  financial audits. The Department also agreed to conduct an
                  additional audit of the 1994 through 2001 overhead allocations and
                  adjust future payment for any non-reimbursable costs.

AUDITOR           Management's comments, which are included in their entirety as
COMMENTS          Appendix 2, are responsive to our recommendations.




Page 4                                        Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department obtained adequate assurance
              that only reimbursable costs will be paid to Kerr-McGee for
              remediation of the West Chicago thorium processing facility.

SCOPE         The audit was performed at Albuquerque's Environmental
              Restoration Division, Albuquerque, New Mexico; Kerr-McGee
              LLC Headquarters, Oklahoma City, Oklahoma; and the West
              Chicago thorium processing facility, West Chicago, Illinois from
              September 29, 2003 to March 25, 2004. The audit was limited to a
              review of the Department's claim review process from 1994
              through 2003 and an evaluation of Kerr-McGee's 2002 claimed
              costs.

METHODOLOGY   To accomplish the audit objective, we:
                 •   Reviewed applicable laws, regulations and Departmental
                     guidance to establish program requirements;

                 •   Participated in the Department and DCAA on-site review at
                     Kerr-McGee Headquarters of their 2002 claim submittal;

                 •   Reviewed supporting documentation, including technical
                     reviews and DCAA audits;

                 •   Interviewed Department, DCAA, and Kerr-McGee
                     personnel responsible for preparing or reviewing the Title
                     X reimbursement claims;

                 •   Reviewed the Department's process for reviewing Kerr-
                     McGee overhead costs; and,

                 •   Evaluated the sufficiency of the Department's agreed upon
                     procedures with DCAA.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective of the
              audit. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not conduct a reliability
              assessment of computer-processed data because we did not
              consider such data to be critical to achieving our audit objective.
              We held an exit conference with the Office of Environmental
              Management's Director for the Office of Commercial Disposition
              Options on July 22, 2004.


Page 5                                   Objective, Scope, and Methodology
Appendix 2




Page 6       Management Comments
Appendix 2




Page 7       Management Comments
                                                                    IG Report No. OAS-M-04-08

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
